Docket No.
The Supreme Court of the United States
John Barth, Petitioner
v.
United States

Certificate of Compliance
With Rule 33.1 of the Rules of the Supreme Court

The Petition for Certiorari filed herewith in the above-referenced case was
prepared in accordance with Rule 33.1 of the Rules of the Supreme Court, and contains
7,517 words excluding the Questions, Parties, Contents, Authorities, Counsel list,
quotations per Rule 14.1(f), and Appendices, as provided in Rule 33.1(d). Word counts
may vary slightly.

I hereby certify that the foregoing statement is true and correct to the best of my
knowledge and belief.

^2

A. y^-//

Jfmn Barth, Plaintiff Petitioner
Before me:
Date:
NotaryPublic, State of***
**^jS6unty
Identification:
My commission expires:

